                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


       AUD-MERO-13-18                            Office of Audits                        December 2012




           Compliance Followup Review of
         Department of State Internal Controls
            Over the J. William Fulbright
            Scholarship Fund in Pakistan




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED
                                     UNCLASSIFIED




                                                           Un ited Slates Departm(:nt of Stale
                                                           and the Broadcasting Board of Governors

                                                           OffICe of Inspecror General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978. as amended, and Scction 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effcctivc management. accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, andlor economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector Gcnerul




                                     UNCLASSIFIED
                                  UNCLASSIFIED



Acronyms
ECA        Bureau of Educational and Cultural Affairs
MERO       Middle East Region Operations
OIG        Office of Inspector General
USEFP      United States Educational Foundation in Pakistan




                                  UNCLASSIFIED
                                                         UNCLASSIFIED


                                                       Table of Contents
Section                                                                                                                                Page

Executive Summary .........................................................................................................................1

Background…. .................................................................................................................................2

Compliance Review Objective……. ...............................................................................................3

Compliance Review Results ............................................................................................................4
      MERO-I-09-07 Recommendation 1 ....................................................................................4
      MERO-I-09-07 Recommendation 2 ....................................................................................4
      MERO-I-09-07 Recommendation 3 ....................................................................................5
      MERO-I-09-07 Recommendation 4 ....................................................................................5
      MERO-I-09-07 Recommendation 5 ....................................................................................6
      MERO-I-09-07 Recommendation 6 ....................................................................................7
      MERO-I-09-07 Recommendation 7 ....................................................................................7
      MERO-I-09-07 Recommendation 8 ....................................................................................8
      MERO-I-09-07 Recommendation 9 ....................................................................................8
      MERO-I-09-07 Recommendation 10 ..................................................................................9
      MERO-I-09-07 Recommendation 11 ..................................................................................9

New Recommendation ...................................................................................................................11

Appendices
      A. Scope and Methodology................................................................................................12
      B. Bureau of Educational and Cultural Affairs Response .................................................13
      C. Embassy Islamabad Response ......................................................................................15

Major Contributors to This Report ................................................................................................17




                                                         UNCLASSIFIED
                                               UNCLASSIFIED


                                           Executive Summary
        On May 22, 2009, the Office of Inspector General (OIG), Middle East Region Operations
(MERO), issued the memorandum report Limited-Scope Review of Management and Internal
Controls over the J. William Fulbright Scholarship Fund in Pakistan (MERO-I-09-07), which
reported on the adequacy of management and internal controls over the funds provided to the
United States Educational Foundation in Pakistan (USEFP) to administer the Fulbright program. 1
In the report, OIG identified management and internal control weaknesses in USEFP’s budgeting
and financial reporting and in the Bureau of Educational and Cultural Affairs (ECA) oversight of
the Fulbright program. OIG made 11 recommendations to ECA for improving management and
internal controls, in coordination with USEFP and Embassy Islamabad. The recommendations,
which are listed in the Background section of this report, addressed the need to develop
accounting policies and procedures and an integrated accounting system, to provide timely
audited annual financial statements and accurate grant budgetary projections, and to conduct
periodic internal and external reviews. The objective of this compliance review was to verify the
actions taken by the Department to implement the 11 recommendations made in the May 2009
report.

        OIG determined that the Department had taken sufficient actions to close 10 of
11 recommendations. OIG closed Recommendations 2–11 because USEFP had improved
financial reporting, had integrated grants management with its accounting system, and had hired
a controller. OIG did not close Recommendation 1 because ECA had not ensured that USEFP
had instituted an adequate internal control system, as required by the J. William Fulbright
Foreign Scholarship Board and the USEFP Finance and Accounting Manual. Therefore, OIG is
reissuing Recommendation 1 to ECA, requesting that ECA develop a process to ensure that
USEFP institutes adequate internal controls over its accounting system.

        In its December 7, 2012, response to the draft report (See Appendix B), ECA agreed with
the new recommendation (No. 1). Embassy Islamabad, which was to coordinate with ECA on
the recommendation, provided a letter on November 21, 2012 (See Appendix C), in which they
agreed with the new recommendation. Based on ECA’s response, OIG considers
Recommendation 1 resolved, pending further action. (The responses and OIG’s replies are
included after Recommendation 1.)




1
  The Fulbright program provides competitive, merit-based grants for international educational exchange for U.S.
and foreign students, scholars, teachers, professionals, scientists, and artists. From FY 2009–2012, approximately
$60 million was provided for the Fulbright program in Pakistan. USEFP administers the Fulbright program in
Pakistan under ECA oversight.
                                                         1

                                               UNCLASSIFIED
                                            UNCLASSIFIED


                                              Background

        In February 2009, OIG initiated a limited-scope review on the adequacy of management
and internal controls over the funds provided to USEFP to administer the Fulbright program in
Pakistan. The resulting OIG report 2 identified internal and management control weaknesses,
including a lack of policies and procedures, grant reviews, fund monitoring, and financial
reporting and record keeping. The report contained the following 11 recommendations to reduce
risk and improve internal and management controls.

     Recommendation 1. The Bureau of Educational and Cultural Affairs, in coordination with
     Embassy Islamabad, should ensure the United States Educational Foundation in Pakistan
     follows the financial and management policies and procedures of the J. William Fulbright
     Foreign Scholarship Board and the Department of State.

     Recommendation 2. The Bureau of Educational and Cultural Affairs, in coordination with
     Embassy Islamabad, should ensure the United States Educational Foundation in Pakistan
     acquires a new accounting system capable of integrating general ledger, financial
     accounting, grant management, and budgeting, and ensure the United States Educational
     Foundation in Pakistan trains the accounting staff on the acquired accounting system.

     Recommendation 3. The Bureau of Educational and Cultural Affairs, in coordination with
     Embassy Islamabad, should ensure the Board Treasurer of the United States Educational
     Foundation in Pakistan monitors its financial operations by performing periodic reviews and
     reports the results of the reviews to ECA.

     Recommendation 4. The Bureau of Educational and Cultural Affairs, in coordination with
     Embassy Islamabad, should provide the United States Educational Foundation in Pakistan
     with electronic funds transfer information made to the Institute of International Education on
     its behalf within 10 days of receipt of such payments by the Institute of International
     Education.

     Recommendation 5. The Bureau of Educational and Cultural Affairs, in coordination with
     Embassy Islamabad, should ensure the United States Educational Foundation in Pakistan
     provides ECA with quarterly unaudited financial statements (Income Statement, Statement
     of Cash Flow, Balance Sheet, and Fulbright Program Expenditures against Budget
     Information) and audited annual financial reports for the preceding fiscal year by April 1 of
     each year.



2
 Limited-Scope Review of Management and Internal Controls over the J. William Fulbright Scholarship Fund in
Pakistan (MERO-I-09-07, May 2009).
                                                      2

                                            UNCLASSIFIED
                                         UNCLASSIFIED

        Recommendation 6. The Bureau of Educational and Cultural Affairs, in coordination with
        Embassy Islamabad, should ensure the management office of the United States Educational
        Foundation in Pakistan is staffed with a controller to manage accounting, budgetary, and
        financial reporting processes.

        Recommendation 7. The Bureau of Educational and Cultural Affairs, in coordination with
        Embassy Islamabad, should ensure the United States Educational Foundation in Pakistan
        reviews and revises, as appropriate, in collaboration with ECA and cooperating agencies,
        grant estimates by individual grantee.

        Recommendation 8. The Bureau of Educational and Cultural Affairs, in coordination with
        Embassy Islamabad, should ensure the United States Educational Foundation in Pakistan
        places unexpended grant funds in an interest-bearing account.

        Recommendation 9. The Bureau of Educational and Cultural Affairs, in coordination with
        Embassy Islamabad, should perform scheduled periodic on-site reviews of the operation of
        the United States Educational Foundation in Pakistan.

        Recommendation 10. The Bureau of Educational and Cultural Affairs, in coordination with
        Embassy Islamabad, should fund and request State OIG to perform periodic on-site audits of
        the operations of the United States Educational Foundation in Pakistan, in accordance with
        U.S. Agency for International Development/Department of State memoranda of agreement;
        10 FAM 236.4-2 (implementation of systematic program monitoring plans); and appendices
        6, 7, and 8 of the J. William Fulbright Foreign Scholarship Board Manual for Binational
        Commissions and Foundations.

        Recommendation 11. The Bureau of Educational and Cultural Affairs, in coordination with
        Embassy Islamabad, should ensure the United States Educational Foundation in Pakistan
        establishes and follows written policies and procedures for evaluating and selecting
        scholarship applicants, and administering scholarships, as outlined in the policies of the
        J. William Fulbright Foreign Scholarship Board and the Department of State.

                                Compliance Review Objective
      The objective of this compliance review was to verify the actions taken by the
Department to implement the 11 recommendations contained in the May 2009 OIG report. 3




3
    Ibid.
                                                  3

                                         UNCLASSIFIED
                                        UNCLASSIFIED


                                Compliance Review Results
MERO-I-09-07 Recommendation 1. The Bureau of Educational and Cultural Affairs, in
coordination with Embassy Islamabad, should ensure the United States Educational Foundation
in Pakistan follows the financial and management policies and procedures of the J. William
Fulbright Foreign Scholarship Board and the Department of State.

        Background: OIG made this recommendation after determining that USEFP was not
following the financial and management policies and procedures contained in the J. William
Fulbright Foreign Scholarship Board’s Manual for Binational Commissions and Foundations.
As the cooperating nonprofit organization assisting ECA in Pakistan, USEFP was required to
follow the Manual’s guidelines when administering the Fulbright program’s funds.

        In their response to MERO-I-09-07, ECA officials stated that they had provided USEFP
with the Manual for Binational Commissions and Foundations and had requested that USEFP
establish policies and procedures based on the Manual’s guidelines. According to ECA, USEFP
hired an accounting firm to prepare the policies and procedures, which were subsequently
approved by USEFP Board of Directors, Embassy Islamabad, and ECA.

        Compliance Review Results: OIG verified that the USEFP’s Finance and Accounting
Manual aligned with the guidelines included in the Manual for Binational Commissions and
Foundations. However, OIG determined that USEFP had not established adequate internal
controls in its accounting system, as required by section 4.2 of the Finance and Accounting
Manual. USEFP had not segregated the accounts payable and receivable duties, which could
have resulted in the modification and deletion of data entries in an effort to hide employee fraud.
USEFP also granted every accounting system user with full “administrative level” access, which
allowed the users unrestricted access to create, modify, and delete transactions and accounts.
Further, USEFP did not ensure that its accounting system could create a comprehensive audit
trail, which reduced the manager’s ability to detect inadvertent or erroneous user entries.

        Status: OIG is reissuing MERO-I-09-07 Recommendation 1 to address the inadequate
internal controls over USEFP’s accounting system. Although USEFP developed a Finance and
Accounting Manual, it had not implemented the internal control requirements. (The new
recommendation is included in the New Recommendation section of this report.)

MERO-I-09-07 Recommendation 2. The Bureau of Educational and Cultural Affairs, in
coordination with Embassy Islamabad, should ensure the United States Educational Foundation
in Pakistan acquires a new accounting system capable of integrating general ledger, financial
accounting, grant management, and budgeting, and ensure the United States Educational
Foundation in Pakistan trains the accounting staff on the acquired accounting system.


                                                 4

                                        UNCLASSIFIED
                                       UNCLASSIFIED

       Background: OIG made this recommendation after determining that USEFP’s
accounting system was not capable of maintaining grant information by individual student.
USEPF instead was using a manual spreadsheet to record and maintain individual student
awards, budgets, and expenses, which increased the risk of error and did not effectively integrate
grants management with the accounting system.

        In their response to MERO-I-09-07, ECA stated that USEFP had hired an accounting
firm to develop an accounting system that would integrate grants management. According to
ECA, the new accounting system, Integrated Financial Management System, was delivered and
installed on April 1, 2010.

        Compliance Review Results: OIG verified that USEFP’s new accounting system,
Integrated Financial Management System, was capable of integrating general ledger, financial
accounting, grants management, and budgeting and that training on the new system was provided
to the accounting staff.

     Status: OIG closed MERO-I-09-07 Recommendation 2 based on actions taken by
USEFP.

MERO-I-09-07 Recommendation 3. The Bureau of Educational and Cultural Affairs, in
coordination with Embassy Islamabad, should ensure the Board Treasurer of the United States
Educational Foundation in Pakistan monitors its financial operations by performing periodic
reviews and reports the results of the reviews to ECA.

      Background: OIG made this recommendation after determining that USEFP was not
monitoring its financial operations by performing periodic reviews and reporting the results to
ECA.

        In its response to MERO-I-09-07, Embassy Islamabad stated that it had advised the
USEFP treasurer to maintain weekly communication with USEFP, perform periodic reviews, and
report the review results to ECA.

       Compliance Review Results: OIG verified that USEFP’s treasurer was conducting
reviews of the quarterly reports and was submitting the review results to ECA.

     Status: OIG closed MERO-I-09-07 Recommendation 3 based on actions taken by
USEFP.

       MERO-I-09-07 Recommendation 4. The Bureau of Educational and Cultural Affairs,
in coordination with Embassy Islamabad, should provide the United States Educational
Foundation in Pakistan with electronic funds transfer information made to the Institute of

                                                5

                                       UNCLASSIFIED
                                              UNCLASSIFIED

International Education on its behalf within 10 days of receipt of such payments by the Institute
of International Education.

       Background: OIG made this recommendation after identifying that ECA was not
informing USEFP when it transferred funds to the Institute of International Education.

        In its response to MERO-I-09-07, ECA stated that it had initiated a confirmation process
to advise Embassy Islamabad and USEFP of funds transfers to the Institute of International
Education within 10 business days and to report the information in its annual Status of Funds 4
memorandum.

       Compliance Review Results: By reviewing the FY 2009 and FY 2010 Status of Funds
memoranda, OIG verified that ECA had been informing USEFP of the Institute of International
Education fund transfers within 10 days. USEFP staff also reported that ECA was consistently
providing that information.

     Status: OIG closed MERO-I-09-07 Recommendation 4 based on actions taken by
USEFP.

MERO-I-09-07 Recommendation 5. The Bureau of Educational and Cultural Affairs, in
coordination with Embassy Islamabad, should ensure the United States Educational Foundation
in Pakistan provides ECA with quarterly unaudited financial statements (Income Statement,
Statement of Cash Flow, Balance Sheet, and Fulbright Program Expenditures against Budget
Information) and audited annual financial reports for the preceding fiscal year by April 1 of each
year.

       Background: OIG made this recommendation after identifying that USEFP’s financial
statements had not been audited since September 30, 2006, and that USEFP was not providing
ECA with quarterly unaudited financial statements in accordance with the Manual for Binational
Commissions and Foundations.

       In their response to MERO-I-09-07, ECA and Embassy Islamabad officials stated that
USEFP’s financial statements from FY 2007 through FY 2009 had been audited and that
unaudited quarterly financial reports had been submitted to ECA.

        Compliance Review Results: OIG verified that the USEFP FY 2007 through FY 2011
financial statements had been audited and that unaudited quarterly financial reports had been
submitted to ECA.


4
 The Status of Funds memorandum is a record of all financial transactions that ECA initiates on behalf of
Commissions.
                                                         6

                                              UNCLASSIFIED
                                               UNCLASSIFIED

     Status: OIG closed MERO-I-09-07 Recommendation 5 based on actions taken by
USEFP.

MERO-I-09-07 Recommendation 6. The Bureau of Educational and Cultural Affairs, in
coordination with Embassy Islamabad, should ensure the management office of the United States
Educational Foundation in Pakistan is staffed with a controller to manage accounting, budgetary,
and financial reporting processes.

        Background: OIG made this recommendation after identifying that USEFP did not have
a controller or Chief Financial Officer managing its financial operations. Instead, the USEFP
Executive Director, who was responsible for approving and rejecting the grant applications, was
also managing USEFP’s day-to-day financial operations. Proper segregation of duties dictates
that recording, maintaining, and reporting of organization’s financial activities should be
independent of overall program management.

        In their response to MERO-I-09-07, ECA and Embassy Islamabad officials stated that
they had engaged an accounting firm to assist with recruiting a USEFP controller. According to
ECA’s response, the new controller would report to the USEFP Board of Directors through the
treasurer so that the segregation of duties are clear and allow for better transparency and
accountability within the organization.

      Compliance Review Results: OIG verified that USEFP had hired a controller to
manage its accounting, budgetary, and financial reporting processes.

     Status: OIG closed MERO-I-09-07 Recommendation 6 based on actions taken by
USEFP.

MERO-I-09-07 Recommendation 7. The Bureau of Educational and Cultural Affairs, in
coordination with Embassy Islamabad, should ensure the United States Educational Foundation
in Pakistan reviews and revises, as appropriate, in collaboration with ECA and cooperating
agencies, grant estimates by individual grantee.

       Background: OIG made this recommendation after identifying that USEFP was not
reviewing grant costs by individual grantee as required by the Manual for Binational
Commissions and Foundations.

        In their response to MERO-I-09-07, ECA and Embassy Islamabad officials stated that
they had requested the Institute of International Education to provide USEFP with a projected
cost report 5 of grant estimates by individual grantee. ECA stated that USEFP would work in

5
  The projected cost report lists grantee names, projected program travel expenses, administrative expenses, and the
total cost.
                                                          7

                                               UNCLASSIFIED
                                        UNCLASSIFIED

collaboration with ECA and Institute of International Education to review and revise, as
appropriate, grant estimates and, as a standard practice, provide the report to ECA as needed.

        Compliance Review Results: OIG reviewed USEFP’s calendar years 2009 and 2010
projected cost reports and verified that the reports provided the estimates by individual grantee.
OIG also interviewed the ECA Branch Chief, who stated that USEFP reviews and revises grant
estimates by individual grantees, as appropriate, and provides ECA with revised projected cost
reports.

     Status: OIG closed MERO-I-09-07 Recommendation 7 based on actions taken by
USEFP.

MERO-I-09-07 Recommendation 8. The Bureau of Educational and Cultural Affairs, in
coordination with Embassy Islamabad, should ensure the United States Educational Foundation
in Pakistan places unexpended grant funds in an interest-bearing account.

       Background: OIG made this recommendation after identifying that USEFP had
approximately $58.3 million in a noninterest-bearing account as of September 30, 2008.

       In their response to MERO-I-09-07, ECA stated that USEFP had consulted with Citibank
New York and had obtained professional tax guidance and opinions regarding its registration and
tax exemption status. ECA also stated that USEFP had opened an interest-bearing account with
Citibank New York.

       Compliance Review Results: OIG reviewed USEFP’s calendar year 2010 and 2011
USEFP bank statements and verified that unexpended grant funds were maintained in an interest-
bearing account.

     Status: OIG closed MERO-I-09-07 Recommendation 8 based on actions taken by
USEFP.

MERO-I-09-07 Recommendation 9. The Bureau of Educational and Cultural Affairs, in
coordination with Embassy Islamabad, should perform scheduled periodic on-site reviews of the
operation of the United States Educational Foundation in Pakistan.

        Background: OIG made this recommendation after identifying that ECA’s oversight of
USEFP was inadequate. ECA never conducted or scheduled an on-site review of USEFP. OIG
noted in MERO-I-09-07 that ECA’s failure to perform on site reviews had contributed to the
breakdown of USEFP’s system of internal controls.

       In its response to MERO-I-09-07, ECA stated that the ECA Fulbright program staff had
made four visits to Islamabad in November 2009, February 2010, May 2010, and June 2010 to
                                                 8

                                        UNCLASSIFIED
                                       UNCLASSIFIED

conduct on-site reviews of the USEFP Fulbright program and to ensure that operations were
achieving intended results.

       Compliance Review Results: OIG verified that ECA had performed periodic on-site
reviews of the operation of the United States Educational Foundation in Pakistan and that ECA
had documented the results of their reviews.

        Status: OIG closed MERO-I-09-07 Recommendation 9 based on actions taken by ECA.

MERO-I-09-07 Recommendation 10. The Bureau of Educational and Cultural Affairs, in
coordination with Embassy Islamabad, should fund and request State OIG to perform periodic
on-site audits of the operations of the United States Educational Foundation in Pakistan, in
accordance with U.S. Agency for International Development/Department of State memoranda of
agreement; 10 FAM 236.4-2 (implementation of systematic program monitoring plans); and
appendices 6, 7, and 8 of the J. William Fulbright Foreign Scholarship Board Manual for
Binational Commissions and Foundations.

        Background: OIG made this recommendation after identifying that ECA’s FY
2005–2008 memoranda of agreement with U.S. Agency for International Development had
stated that the Department of State OIG must perform periodic program and financial audits of
the use of the funds.

        In its response to MERO-I-09-07, ECA requested that the Department of State OIG
perform an on-site audit of USEFP. However, in an e-mail dated July 21, 2009, OIG stated that
it could not conduct a followup audit until “sometime in FY 2010.” Subsequently, in October
2010, OIG acknowledged that it was outside of ECA’s scope of control to obtain on-site periodic
audits of USEFP and therefore closed the recommendation.

       Compliance Review Results: No additional review was conducted by OIG.

       Status: No additional action is required.

MERO-I-09-07 Recommendation 11. The Bureau of Educational and Cultural Affairs, in
coordination with Embassy Islamabad, should ensure the United States Educational Foundation
in Pakistan establishes and follows written policies and procedures for evaluating and selecting
scholarship applicants, and administering scholarships, as outlined in the policies of the J.
William Fulbright Foreign Scholarship Board and the Department of State.

        Background: OIG made this recommendation after determining that USEFP had not
established written policies and procedures for evaluating and selecting scholarship applicants,
and administering scholarships, as outlined in the policies of the J. William Fulbright Foreign
Scholarship Board and the Department of State.
                                                9

                                       UNCLASSIFIED
                                       UNCLASSIFIED



        In their response to MERO-I-09-07, ECA stated that the USEFP Executive Director and
staff had drafted policies and procedures for evaluating applicants and administrating
scholarships and grants as outlined in the Manual for Binational Commissions and Foundations.
According to a memorandum dated October 4, 2010, ECA stated that the policies and procedures
had been approved for implementation by ECA and USEFP Board of Directors.

       Compliance Review Results: OIG verified that USEFP established written policies and
procedures for evaluating and selecting scholarships applicants and administering scholarships as
outlined in the policies of the J. William Fulbright Foreign Scholarship Board and the
Department of State.

     Status: OIG closed MERO-I-09-07 Recommendation 11 based on actions taken by
USEFP.




                                               10

                                       UNCLASSIFIED
                                      UNCLASSIFIED


                                 New Recommendation
Recommendation 1. The Bureau of Educational and Cultural Affairs, in coordination with
Embassy Islamabad, should develop a process to ensure that the United States Educational
Foundation in Pakistan complies with the internal control requirements of Finance and
Accounting Manual Section 4.2 to include ensuring segregation of duties, restricting
administrator-level access, and establishing comprehensive audit trails.

         Management Response: ECA agreed with the recommendation, stating that USEFP had
segregated duties in accounts payable and receivable, limited user access to the accounting
system, and hired an accounting firm to create software that will include a comprehensive audit
trail for USEFP’s financial management system. ECA further stated that USEFP was in the
process of establishing standard procedures.

       Although not required to provide a response, in a letter to OIG, Embassy Islamabad
agreed with the recommendation, stating that USEFP has taken action to address the
recommendation.

        OIG Reply: OIG considers the recommendation resolved. The recommendation can be
closed when OIG reviews and approves documentation showing that ECA has developed the
specified process.




                                              11

                                      UNCLASSIFIED
                                       UNCLASSIFIED


                                                                                    Appendix A
                                 Scope and Methodology
       The objective of this compliance review was to verify the actions taken by the
Department to implement the 11 recommendations contained in the OIG report Limited-Scope
Review of Management and Internal Controls over the J. William Fulbright Scholarship Fund in
Pakistan (MERO-I-09-07, May 2009). This review was conducted in accordance with the
Quality Standards for Inspection and Evaluation issued in January 2011 by the Council of the
Inspectors General on Integrity and Efficiency. OIG believes that the evidence obtained
provides a reasonable basis for the findings and conclusions based on the review.

        To verify actions taken to implement the 11 MERO-I-09-07 recommendations, OIG
conducted field work in Washington, DC, and Islamabad, Pakistan. OIG interviewed Bureau of
Educational and Cultural Affairs officials in Washington, DC. OIG reviewed recommendation
closure memoranda and OIG compliance reviews. Furthermore, additional correspondence,
documentation, periodic review reports, audited financial statements, bank statements, and
policies and procedures were also verified.

       To further verify the actions taken to implement Recommendation 2, OIG conducted
fieldwork at the United States Educational Foundation in Pakistan (USEFP) office in Islamabad,
Pakistan. OIG interviewed embassy and USEFP staff responsible for monitoring the Fulbright
program funds. OIG also met with USEFP accounting staff and interviewed the controller and
employees. To test access controls in the new accounting system, OIG observed staff members
navigate the system to demonstrate their access rights.

        OIG conducted this review from October 2011 through October 2012. The fieldwork
took longer than anticipated because the Government of Pakistan took more than 4 months to
issue visas to the team.

Review of Internal Controls
OIG performed steps to assess the adequacy of internal controls related to the areas evaluated.
For example, OIG gained an understanding for segregation of duties and access control in the
new accounting system. Significant deficiencies identified during the evaluation are reported in
the Evaluation Results section of this report.

Use of Computer-Processed Data
OIG did not rely on the use of computer-processed data to support the findings, conclusions, or
recommendation in this evaluation.


                                               12

                                       UNCLASSIFIED
                                     UNCLASSIFIED


                                                                                                         Appendix B

 Bureau of Educational and Cultural Affairs Response


                                                             Bllrl'tllI of Edunl fiOlwl and elLilU ral lJj'a i r ..



                                                             lI·u·u·.Sltllp .P:Ol


f)ATE:                                 DI.'Ccmber 7, 2011

:v!EMORANf)UM TO:                      OlG - Carol Gorman. Deputy Assistant Inspector General
                                       Middle East Region Operatio ns

                                       O IG - James Pollard. Audit Director. Middle East Regional
                                       Oflicc

FROM :                                 ECA - AIm Stock. Assistant Secretary of State for \."':::::'
                                       Educational and Cullum) Affairs

SlJBJECT:                              Written Response to DIG Report Recommendations:
                                       Compliance Follow-up Review of Department of State
                                       Internal Controls over the J. William Fulbright Scholarship
                                       Fund in Pakisra.n: Report Number MERO- I-09-07

The following is [he Bureau of Educational a nd Culturdl Affairs' (ECA) response to the
Compliance Follow-up Review of Deparunent of State Internal Controls over the J. William
Fulbright Scholarship Flmd in Pakistan. Report N um ber: MERO-J-09-07.

As noted in the draft repoft. O IG dctenn ined thal ten orthe cleven recommendations have been
successfully fu lfilled and closed. The fina l recommendati on. ident ified as '"Recommendation 1"
is addressed below.

Recommendation 1: The.: Bureau of Education...""ll a nd C ultural Affairs. in coordination with
Embassy Is lamabad. sho uld develop a process to e nsure that the United States Educat ional
Foundation in Pakistan complies with the internal control requi rement s of finance and
Accounting Manual Section 4.2 to includ e ensuring segregation of dUlies. restricting
admin istrator-level acct.'ss. and estabLishing comprehensive audit tra ils.

H.csponsc: EeA and Embassy Islamabad agree w ith this recommendati on .

Embassy Islamabad. in coordi nation with ECA, has already taken steps to remedy the issue by
requesting USEFP to cstabl ish standard procedures. USEFP has taken ac ti on by segregat ing
duties of accounts payable and receivable to diflcrcm statrmcmbcrs. In addition. USEFP hc.""\S
limited access to the accounting system to five Finance and Accoun ti ng staffmcmbcrs. as
follows:




                                                 13

                                     UNCLASSIFIED
                                     UNCLASSIFIED




                                              -2-


                                    View OnlY             T as ~
Controller                          Full Access            Full Access
Finance Manager                     Full Access            Full Access
Assistant Manager. Accounts         Full Access            Receivables. General Journal
Accounts Oflicer                    Full Access            Accounts Payable
Assistant Finance Officer           Full Access            Accounts Payable

USEFP ha!> hired Dcloitte 10 create soflware that will include a comprehensive audit traiL
Deloine required more time and additional funds to develop the software Ihat will work with
USEFP's existing accounting system. USEFP believes the softwarc will be ready in
approximately three months (February 2013) .

ECA has requested that the USEFP Board Treasurer monitor the progress orthe software update
and ils subsequent implementation. ECA has requested that USEFP and the Treasurer remain in
regular communication with ECA on the status of the accounting system.




                                                  14

                                     UNCLASSIFIED
                                       UNCLASSIFIED


                                                                                                   Appendix C

                          Embassy Islamabad Response


                                                                     AMBASSADOR OF
                                                              TliE UNITED STATES OF AMERICA
                                                                           ISLAMABAD


                                                                       November 21,20 12



r.ofr. H arold W. Geisel
Deputy Inspector General
Dep arUllem o f St.1te
2201 C Sucet NW
Washington , DC 20520

Dear Mr. Geisel:

         ',:be U.S. Embllssy in Tsl.:m12bad and the U.S. Educational Foundation m
Pakistan (USEFP) agree with tht: recommendatiOlls in the draft rcpan Ctm'Plu","
F()IhlP-li/J IV";,. tif Depanmml tifSlale Inlmlal ConlrrJu 0,," lIN}. Wi/lialll Flilbri:thl
S(lJqkJl'lbtp Flint! in Pakistan as prepared by tht: O ffice of Tmpc..""Ctur General', Officc of
I\udits.

        J\ $ nOled in the draft cq>On, len of the ekyen recommeml ul0n~ ha\'e already
been ful6J1cd and succ:cssfully closed . For the outsmnding recommendation,
identified as "Recommendation I," USEFP has made every effon to adequately
complete the recommendation. Plea~e refer IQ th e :'machlllc1ll accompanying th.i~
letler fo r more info rmation.

       If you require any additional details or clarification with our respon ses to the
draft report recomm end ation s, please let me know.




                                                  15

                                       UNCLASSIFIED
                                            UNCLASSIFIED




AuachweD'

R<:<:on,n,endation I requestcd the USEFP fQIIQW the fina n CIal and managen'en. polid"s and
procedure" 'Of .he J. Willia", Fulbrigh t Fon:ign Sc.hola.... ";p Board and the Ckpanrn<:nt of
State. USF.PJ> cornplied with the recOntmendation but three o ua-tanding reques", rern,uned:
( I ) ."sr"gIl te .he accou n ... payable and reccivable duries : (2) linti t aCCClI$ to appropriate users;
and (3 ) e n sure the accounting :oysten , could create a comprehens ,ve audit " rue.n.

USE.. FP <:ornplied with poin." (I) by segregating dube" ofaccou",,, payable a n d ~eccivablc: to
different ~t2ffn,e.nbcn;, and (2) naHowing the acceu to the accounting ~y~tem of rhe five
USEFP Finance and Accounting "caffa" follows,

                                      View     oru)'          :I:aaka
C Qntroller                           Full Access         Full Acce,,~
I ' ina n ce Manage r                 Full .I\cc""..      Full Aeec~:<
A:<:<i~m" . iVlana s"r Account"       Full ~\cces s       ReccivablcM. Gencraljournal
ACCQun. " Officer                     I'ull.l\<:c<:"'"    AccQun,,, P ayable
.I\"8 i:< ' a'" Finance OfficcJ:      Full AcceM          Aeeounu P"y"b1<:

USEFP complicd with point (3) as follows:

u sur-p i" """'~king with Deloine ' 0 cre"'e SQftware thu will indude" cornpre h c n sive audit
u-ail. Dcloi"e ~...'<[uircd tTlorc titTle and an additional S I .500 to develop the .. ofrw-are that will
fit within US I ·: FP's e",isting accounting s),ste,n. U SIlFP e s rimue e the 80ftwarc will be read)'
for u .. e ..h rce .nonl.hs from nO"W.




                                                         16

                                            UNCLASSIFIED
                                    UNCLASSIFIED


Major Contributors to This Report

Carol Gorman, Deputy Assistant Inspector General
Middle East Region Operations
Office of Audits

James Pollard, Audit Director
Middle East Region Operations
Office of Audits

Suzana Chowdhury, Auditor
Middle East Region Operations
Office of Audits




                                            17

                                    UNCLASSIFIED
